           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

      THE APPEALS PROCESS
      FOR MEDICARE PART D
       LOW-INCOME SUBSIDY
   ELIGIBILITY DETERMINATIONS

   March 2008     A-06-08-18005




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                       SOCIAL SECURITY
MEMORANDUM

Date:      March 14, 2008                                                Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Appeals Process for Medicare Part D Low-Income Subsidy Eligibility
           Determinations (A-06-08-18005)


           OBJECTIVE

           Our objective was to determine whether the Social Security Administration (SSA)
           effectively managed appeals requested by individuals whose applications for the
           Medicare Part D low-income subsidy were denied.

           BACKGROUND

           The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 1
           established the Voluntary Prescription Drug Benefit Program, also known as Medicare
           Part D, to provide prescription drug benefits for Medicare beneficiaries in the
           United States. Medicare Part D provides for certain low-income individuals to receive
           premium, deductible and co-payment subsidies. While the Centers for Medicare and
           Medicaid Services (CMS) has the overall responsibility for implementing the prescription
           drug benefit, SSA is responsible for processing low-income subsidy applications and
           determining eligibility.

           SSA determines subsidy eligibility through a review of the applicant’s income,
           resources, and ownership of real property, as disclosed on the individual’s application
           for a subsidy. The results are compared to income levels in Federal Poverty Guidelines
           and established resource limits. SSA’s subsidy eligibility determinations are subject to
           appeal/administrative review. Administrative review must be requested within 60 days
           after the date the individual receives notice of the initial determination. Applicants who
           appeal the initial determinations can either request a telephone hearing or case review.
           These hearings will be conducted by individuals who were not involved in making the
           initial determination. If an individual is dissatisfied with SSA’s final decision, he/she
           may file an action in Federal district court. As of March 2007, SSA had denied over
           2.9 million applications for the low-income subsidy.


           1
               Pub. L. No. 108-173.
Page 2 - The Commissioner


To address the initial volume of subsidy determination appeals associated with the
Medicare Part D Program, in June 2005, SSA created 6 Subsidy Appeals Units (SAU)
staffed with approximately 100 new, detailed and assigned employees. Since that time,
SSA has reduced the number of SAUs from six to the one currently operating in
Woodlawn, Maryland. As of May 25, 2007, the SAU had closed 82,807 appeals, and
another 2,453 appeals were pending.

RESULTS OF REVIEW
SSA effectively managed appeals requested by individuals whose applications for the
Medicare Part D low-income subsidy were denied. Our review of 100 closed appeals
found that subsidy determination reviewers documented contacts and discussions with
appellants and noted supplemental information that justified their decisions.

However, the SAU did not meet its internal operational goals of processing 75 percent
of all appeals within 60 days or 100 percent of appeals within 90 days. 2 Our review of
filing and closure dates of 82,807 appeal decisions issued from June 2005 to May 2007
disclosed the processing times for 36,859 cases (45 percent) exceeded 60 days, and
the processing times for 22,263 cases (27 percent) exceeded 90 days. SAU personnel
stated the timeliness goals were not met for two primary reasons: (1) field offices did
not properly finalize and forward appeals to the SAU, resulting in delayed assignment to
a subsidy determination reviewer or (2) systems interface issues prevented appeals
cases closed in the Case Processing and Management System (CPMS) from updating
Medicare Application Processing System (MAPS) and being transmitted to CMS.
Addressing these issues will help ensure the appeal decisions are rendered in a timely
manner.

Appeal Cases Not Timely Submitted to the SAU

Low-income subsidy eligibility determination appeals SSA received were not always
timely submitted to the SAU for processing. SSA instructs individuals who appeal
eligibility determinations to submit appeal requests in person at a field office, over the
telephone through SSA’s 800 number service, or via mail to the Wilkes-Barre Data
Operations Center. Appeal processing time begins when SSA personnel at these
locations input appeal information into MAPS development worksheets. Once the
information is input in MAPS, SSA personnel must input the command “Submit To AU”
to forward the cases to the SAU for review.

According to SAU personnel, SSA staff does not always input the “Submit To AU”
command after completing the development worksheets. In these instances, appeals
cases remained open/unresolved for extended periods, in some cases increasing the
case processing time beyond the 60-day goal. The SAU identified this problem when it
observed the number of appeals cases opened in MAPS exceeded the number of
appeals cases received in the SAU and took action to identify and work these cases.
However, this problem still adds several extra days to appeal processing time.

2
 In May 2007, the Commissioner formally established the goal of processing 75 percent of all appeals
within 60 days as an Agency standard.
Page 3 - The Commissioner


In response to this audit finding, SSA took action to identify all appeal cases pending in
offices other than the SAU. On January 11, 2008, SSA Operations staff forwarded
each SSA region a listing that identified pending appeal cases and requested region
offices work with their field offices to ensure the cases were submitted to the SAU as
quickly as possible. SSA instructed the regions to remind field office staff they should
submit subsidy appeals as soon as the cases are posted to MAPS. Operations staff
will continue to monitor pending appeals and provide regions with updated listings each
month.

Appeal Decisions Not Updated in MAPS

Appeal decisions input into the CPMS did not always update MAPS to allow
transmission of the appeal decision to CMS. To illustrate, the SAU provided a
September 6, 2007 report, Workload Listings, which detailed 47 open appeals with an
age range of 252 to 631 days (27 of those open appeals were over 400 days). Each of
these appeals is closed in CPMS but remains open in MAPS.

To mitigate this issue, the SAU notified the Office of Systems of this problem and took
action to identify appeals closed in the CPMS but open in MAPS. Additionally, the SAU
ensured individuals who obtained favorable appeal determinations received the subsidy
despite the fact that the appeals were not closed in MAPS. In these cases, the SAU
provided “Dire Need” letters to CMS to initiate the subsidy for affected individuals.

CONCLUSIONS AND RECOMMENDATIONS

SSA effectively managed the Medicare Part D low-income subsidy appeals process.
Our review of closed appeals found that all cases we reviewed were properly
documented, and the decisions were justified based on the subsidy determination
reviewer’s notes and the information provided by the applicants. For technical and
administrative reasons, SSA did not meet its timeliness goals for processing appeals
within 60 days. However, the SAU took action to ensure individuals awarded the
subsidy received it in a timely manner. Addressing the technical and administrative
issues will improve claims processing time and help move SSA toward achieving its
low-income subsidy claim processing goals.

We recommend that SSA:

1. Take appropriate action to ensure all CPMS appeal closings are automatically
   posted to MAPS.
Page 4 - The Commissioner


AGENCY COMMENTS

SSA agreed with our recommendation. The Agency’s comments are included in
Appendix C.




                                           Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                           Appendix A

Acronyms
CMS           Centers for Medicare and Medicaid Services
CPMS          Case Processing and Management System
MAPS          Medicare Application Processing System
Pub. L. No.   Public Law Number
SAU           Subsidy Appeal Units
SSA           Social Security Administration
                                                                     Appendix B

Scope and Methodology
Our objective was to determine whether the Social Security Administration (SSA)
effectively managed appeals requested by individuals whose applications for the
Medicare Part D low income subsidy were denied.

In conducting our audit, we:

•   Reviewed applicable Federal Law and SSA’s policies and procedures concerning
    the appeals process for the Medicare Part D low-income subsidy.

•   Interviewed Headquarters and Subsidy Appeals Unit personnel.

•   Reviewed SSA’s documentation of the appeals process and methodology for
    determining disposition of the subsidy appeals.

•   Analyzed data on appeals with dispositions to determine the timeliness of closing
    the subsidy appeals. We reviewed filing and closure dates of 82,807 appeals filed
    from August 2005 to May 2007.

•   Reviewed a randomly selected sample of 50 of the 82,807 closed appeals. Review
    of these appeal cases indicated subsidy determination reviewers documented
    contacts and discussions with appellants and noted supplemental information that
    justified their decisions in all 50 cases.

•   Reviewed the 50 appeal cases with the highest number of days between initial filing
    and final disposition. Review of these appeals also indicated subsidy determination
    reviewers documented contacts and discussions with appellants and noted
    supplemental information that justified their decisions in all 50 cases.

We conducted our audit in accordance with generally accepted government auditing
standards from May through October 2007. We did not test the general or application
controls of SSA systems that generated electronic data used for this audit. Instead, we
traced selected transactions to source documents and performed other validation tests
and found the data to be sufficiently reliable to meet our audit objectives. The entity
audited was the Subsidy Appeals Unit within the Office of Disability and Income
Security Programs.
                  Appendix C

Agency Comments
                                        SOCIAL SECURITY


MEMORANDUM


Date:     February 27, 2008                                                      Refer To:   S1J-3

To:       Patrick P. O'Carroll, Jr.
          Inspector General

From:     David Foster         /s/
          Chief of Staff

Subject   Office of the Inspector General (OIG) Draft Report, "The Appeals Process for Medicare Part D
          Low-Income Subsidy Eligibility Determinations” (A-06-08-18005)--INFORMATION

          We appreciate OIG’s efforts in conducting this review. Our response to the recommendation is
          attached.

          Please let me know if we can be of further assistance. Staff inquiries may be directed to
          Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


          Attachment




                                                        C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG) DRAFT
REPORT, “THE APPEALS PROCESS FOR MEDICARE PART D LOW-INCOME
SUBSIDY ELIGIBILITY DETERMINATIONS” (A-06-08-18005)

Thank you for the opportunity to review and comment on this draft report. We are pleased that
OIG acknowledged in this report that the Social Security Administration (SSA) has effectively
managed the Medicare Part D low-income subsidy appeals process.

We would like to comment about the statement in the conclusion portion of the report that reads,
“For technical and administrative reasons, SSA did not meet its timeliness goals for processing
appeals within 60 days.” As footnoted on page 2, the Commissioner formally established the
timeliness standards as Agency goals for SAU processing in May 2007. The first tracking report
for fiscal year 2007 was through the month ending May 25, 2007 and it shows that 78 percent of
the appeals were processed within 60 days.

Recommendation 1

SSA should take appropriate action to ensure all Case Processing and Management System
(CPMS) appeals closings are automatically posted to Medicare Application Processing System
(MAPS).

Comment

We agree. We are currently reviewing CPMS and MAPS to determine what improvements can
be made to enhance communication between the two systems. The analysis should be complete
by the end of May 2008. The nature of the solution will determine how quickly it can be
implemented.




                                              C-2
                                                                      Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

Ron Gunia, Director, Dallas Audit Division, (214) 767-6620

Acknowledgments

In addition to those named above:

   Warren Wasson, Senior Auditor

   Brennan Kraje, Statistician

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-06-08-18005.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
